1

Credit Card Agreement
1. INTRODUCTION. Your TD Bank VISA® ∗ Card account (“Account”) is subject to this Credit Card Agreement, including the
Interest Rate and Fee Schedule we send with your credit card(s) (“Card”) when we open an Account for you. This Personal
Credit Card Agreement, the Interest Rate and Fee Schedule and the application or solicitation you submitted for this Account
are all a part of and collectively referred to as the “Agreement.” Please read and keep this Agreement for your records.
You, your and yours mean each person who applied for the Account and the person to whom we direct billing statements
(“Statements”). We, us, our and TD Bank mean TD Bank, N.A., a national bank with its main office located in Delaware, and its
successors and assigns. Authorized User means any other person to whom you give permission to use your Account.
A. Account Use and Acceptance. By accepting your Card and using or maintaining your Account, or letting someone else
use your Card or your Account, you agree to all of the terms of this Agreement. You acknowledge that you received a copy of
this Agreement. Your signature on your application or solicitation for this Account, including without limitation any electronic
signature or oral acceptance of a telephone offer, your Card or any Account-related document represents your signature on
this Agreement.
You agree that you and each Authorized User will not use your Card or Account for any fraudulent or illegal purposes.
Such transactions include, but are not limited to, illegal gambling transactions. We reserve the right to block all such
transactions. If any such charge or transaction is approved and processed, you will still be liable for the charge.
B. Promise to Pay. You promise to pay us for all purchases, balance transfers and cash advances resulting from the use of
your Card or Account, plus interest charges and all other fees and charges owed under this Agreement (including without
limitation all purchases and cash advances made by an Authorized User).
2. GOVERNING LAW. Applicable federal law and the substantive laws of the State of Delaware (to the extent not
preempted by federal law) without regard to principles of conflicts of law or choice of law shall govern this Agreement.
To the extent any court determines that this Agreement is subject to Maryland law concerning credit, you and TD Bank
agree that your Account is governed by Title 12, Subtitle 9 of the Commercial Law Article of the Annotated Code of
Maryland, except as preempted by federal law.
3. USING YOUR ACCOUNT
A. Credit Limit.
1. General. Your initial credit limit is shown in the materials we send with your Card when we open an Account for you. Your
current credit limit will be shown on each Statement. You also may telephone Customer Service at 1-877-GO-TD1ST (1-877468-3178) if you have a First Class Visa Signature Card or 1-888-561-8861 for all other cards for your current credit limit. You
agree to not go over your credit limit. We may permit you to go over your credit limit, but we are not required to do so. If your
Account goes over your credit limit, you agree to pay the overlimit amount when it is billed or sooner upon our request.
2. Limit for Cash Advances. We may set a credit limit for the total dollar amount of cash advances that may be outstanding
from time to time that is lower than the overall credit limit for your Account.
3. Changes to Credit Limit. In our discretion, at any time, we may change any credit limit that applies to your Account. We
will notify you if we change any credit limit. You may ask us to change your credit limit by calling Customer Service at 1-877GO-TD1ST (1-877-468-3178) if you have a First Class Visa Signature Card or 1-888-561-8861 for all other cards. We do not
have to agree to any such request.
B. Types of Transactions.
1. Purchases. You may use your Card to pay for the purchase or lease of goods or services wherever your Card is honored.
If you use your Card to purchase or lease goods or services by telephone, mail or internet, you agree that your signature is not
necessary as identification in such cases.
2. Cash Advances. You may use your Card or Account to obtain cash advances wherever they are honored for cash advances.

VISA is a registered trademark and service mark of VISA International Service Association, and is used by TD Bank, N.A. pursuant to a
license from VISA U.S.A. Inc.

∗

F03-W422-4-0521

2
a. Cash Advances obtained from a financial institution, an automated teller machine, or any other party that agrees to
honor your Card or Account for cash advance purposes, and all convenience checks posted to your account are
considered Cash Advances. For example, your Card may be used to obtain cash advances at ATMs displaying the
VISA logo and from participating financial institutions honoring VISA credit cards. Transactions to obtain the following
goods and services will also be treated as a Cash Advance: travelers checks, foreign currency, money orders, wire
transfers, cryptocurrency, debt repayments, lottery tickets, casino gaming chips, race track wagers, legal online
wagers, or similar betting transactions, and any other similar cash-like transactions.
b. See the Interest Rate and Fee Schedule of this Agreement for Cash Advance fee details. The amount of the Cash
Advance transaction fee will be added to your minimum monthly payment and is due by the payment due date
indicated on your monthly billing statement.
c. You may be required to sign a special form and/or provide your personal identification number (PIN) when making
a Cash Advance. Please select a PIN that is not easily identifiable and does not consist of one single number (for
example, “1111”) or consecutive numbers. PINs should also not be based on or include your birth date, zip code or
Account number. Do not write your PIN on your Card and do not keep your PIN with or near your Card or any Access
Device.
3. Balance Transfers. We may allow you to transfer balances from other credit card accounts with third parties (but not us or
our affiliates) to your Account. We may limit the number and types of credit card accounts from which we will allow you to
transfer balances and the times, amounts, manner and circumstances in which Balance Transfers may be requested. See the
Interest Rate and Fee Schedule on the card mailer for Balance Transfer fee details.
Introductory or Promotional APRs on Balance Transfers: We may from time to time make available certain promotional
Annual Percentage Rate (APRs) on balance transfer transactions. See Section 4 – Interest Charges subsection D for
details on how to avoid paying interest on new purchases if you take advantage of a 0% introductory or promotional
APR Balance Transfer offer.
4. Access Devices. We may from time to time issue additional Account access devices (“Access Devices”). Access Devices
may include, for example, special checks you may use to obtain cash advances or oral offers or written forms by which you
may request balance transfers. Each Access Device must be in the form we issue and must be used according to the
instructions we give you. We may refuse to process Access Devices received after any applicable expiration date. We will not
return paid Access Devices to you. Access Devices may not be used to pay any amount owed to us or our affiliates. We will
not certify any Access Device. You may not post-date any Access Device. We may refuse to process a post-dated Access
Device or process it before the date on the Access Device.
5. Foreign Transactions. If you use your Account to make a purchase or cash advance in a foreign currency, the transaction
will be converted to U.S. Dollars based on a rate selected by VISA U.S.A. Inc. (or any of its affiliates) from the range of rates
available in wholesale currency markets for the applicable central processing date (which may vary from the rate VISA U.S.A.
Inc. itself receives) or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used by VISA U.S.A. Inc. (or any of its affiliates) on the currency conversion date may differ from the exchange
rate in effect on the day you made the transaction or on the day the transaction is posted to your Account.
C. Stop Payment. If you want us to stop payment on an Access Device, notify us by calling Customer Service immediately at
1-877-GO-TD1ST (1-877-468-3178) if you have a First Class Visa Signature Card or 1-888-561-8861 for all other cards. Call
us with your stop payment request as soon as possible after you have submitted the Access Device and give us information
about the Access Device to help us identify it.
If you ask us to stop payment, we will make reasonable efforts not to pay that Access Device. However, if we pay that Access
Device despite these efforts, we will not be liable to you for paying that Access Device. We may not be able to stop payment if
you call us after we have started processing the Access Device. A Stop Payment Fee may apply.
D. Refusal to Honor Your Card or Access Device. A merchant, business or financial institution may refuse to honor your
Card or Access Device. You and each Authorized User agree that you have no legal claims or damages against us or anyone
else if your use of your Account is denied by any merchant, business or financial institution.
E. Statements.
1. General. At the end of each monthly billing cycle (“Billing Cycle”), if there was activity on your Account, we will send you a
Statement showing what you owe (the “New Balance”) as of the end of the Billing Cycle. The Statement will show any interest
charges you owe, the minimum payment due, the payment due date, your current credit limit, an itemized list of fees, charges,
payments and credits posted to your Account during the Billing Cycle and other important information. We will mail or deliver
the Statement to the address we have on file for your Account.
2. Change of Address. You must notify us promptly of any change in your address by calling Customer Service at 1-877-GOTD1ST (1-877-468-3178) if you have a First Class Visa Signature Card or 1-888-561-8861 for all other cards. We may accept
mailing address corrections from the United States Postal Service. You may also update your address online via tdbank.com.
F03-W422-4-0521

3
Until we receive, process, and verify your new address, we will continue to send Statements and other notices to the last
address we have on file for your Account (which may be a correction from the United States Postal Service).
F. Credit Balance. We will make a good faith effort to return to you any credit balance that has been on your Account longer
than six consecutive Billing Cycles (or, in our discretion, for a shorter time period). You may also request a refund of a credit
balance on your Account at any time by calling Customer Service at 1-877-GO-TD1ST (1-877-468-3178) if you have a First
Class Visa Signature Card or 1-888-561-8861 for all other cards. We may reduce the amount of any credit balance on your
Account by applying the credit balance towards new fees and charges posted to your Account. We do not pay any interest on
credit balances.
G. Payments. You may at any time pay off the full unpaid balance or part of the unpaid balance under this Agreement.
1. Minimum Payment. If you have an outstanding balance, we must receive your minimum payment as set forth in section 2
"Making Payments" below. The minimum payment will be the greater of:
(i) $35, or
(ii) One percent (1%) of the New Balance plus:
(a)

The periodic interest charges for the Billing Cycle; plus

(b)

The full amount of any transaction fees (such as Cash Advance, Balance Transfer and
Foreign Transaction Fees) owed for the Billing Cycle; plus

(c)

The full amount of any Annual Membership Fee, Late Payment or Returned Payment Fee
or other applicable fees owed.

In addition, any past due minimum payment amounts will be added to your current minimum payment due.
If your New Balance is less than $35, your minimum payment will equal your New Balance.
Credits, Payment Plus credits (if you have a Payment Plus Account), adjustments, refunds, prepayments and similar Account
transactions may not be used in place of payment of any portion of a required minimum payment. You may pay more than the
minimum payment due (this is a prepayment) without any penalty. The sooner you pay the New Balance, the less you will pay
in interest charges. A prepayment in one Billing Cycle will not excuse you from paying the minimum payment due in the next
Billing Cycle.
2. Making Payments. Payments may be made by mail, online, at a TD Bank store or over the phone. All payments must be
in U.S. dollars and, if applicable, drawn on a U.S. bank. Business Day is defined as Monday through Friday, excluding federal
holidays.
a. By Mail. Send a check or money order to the payment address shown on your Statement with the payment stub
from your Statement. Do not mail any cash payments. A properly addressed payment with the payment stub will be
credited to your Account as of the date received if we receive it by 5 p.m. Eastern Time on a Business Day. A properly
addressed payment with the payment stub received after 5 p.m. Eastern Time or on a day that is not a Business Day
will be credited to your Account as of the next Business Day. You agree to not give us any post-dated check as payment
on your Account. If the payment due date falls on a day on which we do not receive or accept payments, the payment
will not be treated as late if received the next Business Day.
b. Online. You may pay online by logging in to our website. A payment made online will be credited to your Account
as of the date the payment is received. Online payments may not post to your online account until the next Business
Day, but you will receive credit for the payment based on the payment submission date.
c. At TD Bank Stores. You may make a payment in person to one of our employees at a TD Bank store. A payment
made at a TD Bank store will be credited to your Account as of the date received if we receive it by the close of
business for that location.
d. By Phone. You may pay by phone by calling 1-877-GO-TD1ST (1-877-468-3178) if you have a First Class Visa
Signature Card or at 1-888-561-8861 for all other cards. A payment made by phone will be credited to your Account
as of the date received if we receive it by 5 p.m. Eastern Time on a Business Day. Phone payments received after 5
p.m. Eastern Time or on a day that is not a Business Day will be credited to your Account as of the next Business Day.
From time to time, we may allow you to expedite a single payment to your Account from a designated bank account
of yours by telephone.
e. Delay in Crediting and Available Credit. We may reject or delay crediting payments that do not follow the
instructions above. For example, there may be a delay of up to five days in crediting a payment by mail if it is received
at an address other than the address we specify for payments on your Statement or if it is received without the required
F03-W422-4-0521

4
payment stub. Your available credit limit(s) may not reflect the payment for up to 15 days after we have credited a
payment to your Account.
3. Application of Payments.
a. Generally. We will generally apply your minimum payment in the following order:
(i)
to Interest Charges and other fees;
(ii)
to transactions (purchases, balance transfers, cash advances) with the lowest Daily Periodic Rates and
corresponding APRs;
to transactions with the highest Daily Periodic Rates and corresponding APRs.
(iii)
b. Application of Payments in Excess of Minimum Payment. We will generally apply your payments and credits
in excess of the minimum payment in the following order:
(i)
to transactions (purchases, balance transfers, cash advances) with the highest Daily Periodic Rates and
corresponding APRs;
(ii)
to transactions with the lowest Daily Periodic Rates and corresponding APRs.
4. Payments Marked “Paid in Full”. Any check, money order or other instrument sent in payment on your Account marked
with “paid in full” or similar notation to settle a debt on your Account that is reasonably in dispute (and any accompanying letter
or other instructions) must be sent to: TD Bank, P.O. Box 100290, Columbia, SC 29202-3290, Attention: Customer Service. If
such payment is sent to any other address, you agree that (i) we may ignore any special notations or instructions on or with
the payment and (ii) our crediting any such payment to your Account does not mean that we have agreed to any special
notations or instructions on or with the payment.
5. Automatic Payments. We may allow you to repay amounts owed under this Agreement through automatic payments from
a savings or checking account. We may terminate our permission to make automatic payments at any time. If we allow
automatic payments, no automatic payment will occur unless the savings or checking account has sufficient collected funds in
it on the Business Day before the payment due date to cover the full amount of the minimum payment due (or any larger
monthly payment you and we may agree to from time to time). If an automatic payment does not occur for any reason, you still
must pay the minimum payment and a Late Payment or Returned Payment Fee may apply.
If you have authorized us to pay your credit card bill automatically from your checking or savings account with us, you can stop
the payment on any amount you think is wrong. To stop the payment, notify us by calling Customer Service at 1-877-GO-TD1ST
(1-877-468-3178) if you have a First Class Visa Signature Card or 1-888-561-8861 for all other cards. To stop the payment,
your telephone call must reach us three Business Days before the automatic payment is scheduled to occur.
6. Electronic Check Conversion. When you send a check as payment, you authorize us either to use information from your
check to make a one-time electronic fund transfer from your bank account or (at our option) to process the payment as a check
transaction. When we use information from your check to make an electronic fund transfer, funds may be withdrawn from your
bank account on the same day we receive your payment, and you will not receive your check back from your financial institution.
If we cannot process the electronic fund transfer, or if it is returned to us, you authorize us to reinitiate the electronic fund
transfer from your bank account. Alternatively, we may (at our option) present the original check, a substitute check, draft or
similar negotiable instrument to obtain payment. If you have questions about electronic check conversion, you may telephone
us at 1-888-561-8861.
7. Payment Plus Credit. If you have a Payment Plus Account, when we receive qualifying payments of at least 5% of the New
Balance on a Statement on or before the payment due date for that Statement, you will receive a Payment Plus credit. If you
pay 5% to 9.99% of your New Balance, the credit will equal 25% of the interest charged on your next Statement. If you pay
10% or more of your New Balance, the credit will equal 50% of the interest charged on your next Statement. Your Account must
be open and in good standing to receive the Payment Plus credit. Qualifying payments do not include Payment Plus credits,
other credits, adjustments, refunds or similar Account transactions. If your Account is in default, you are in a forbearance plan
or charging privileges have been revoked, you will not receive a Payment Plus credit.
H. Additional Cards and Authorized Users.
1. Additional Cards. You may request additional Cards and permit Authorized Users to have access to your Card or Account.
You will be liable for all Account transactions made and all fees incurred by those Authorized Users (including without limitation
interest charges). We may limit the total number of Cards and other Access Devices issued.
2. Revoking Authorized User’s Authority. To revoke your permission for any person you previously authorized to use your
Card or Account, notify us by calling Customer Service at 1-877-GO-TD1ST (1-877-468-3178) if you have a First Class Visa
Signature Card or 1-888-561-8861 for all other cards. We reserve the right not to discontinue any Authorized User’s ability to
use your Account until we have received the Authorized User’s Card and any unused Access Devices in the possession or
control of the Authorized User (cut, torn, or otherwise deliberately damaged to prevent unauthorized use by third parties). You
will remain responsible for all Account transactions by Authorized Users until we discontinue the Authorized User’s authority to
use your Account.

F03-W422-4-0521

5
If you ask us to revoke an Authorized User’s ability to use your Account, you agree that we will close the affected card(s) only
to new transactions. Your Account number will not change. If we do this, you must notify anyone you have authorized to submit
and post charges to your Account using the affected card.
I. Lost or Stolen Cards, Account Numbers or Access Devices. If any Card, Account number or Access Device is lost or
stolen, or if you think someone used or may use them without your permission, notify us AT ONCE by calling 1-877-GO-TD1ST
(1-877-468-3178) if you have a First Class Visa Signature Card or 1-888-561-8861 for all other cards. You agree that we may
close your Account to new transactions, change your Account number(s) and issue you a new Card(s) and new Access Devices
with different Account number(s) if we have been notified of the possible loss, theft or unauthorized use. If we do this, you must
notify anyone you have authorized to submit and post charges to your Account of your new Account number(s). Do not use
your Card, Account number or Access Device after you notify us, even if your Card or other Access Device is later found or
returned.
Under VISA U.S.A.’s “Zero Liability Policy” you may not be liable for the unauthorized use of your Account or Card
that results in a fraudulent transaction made over the VISA network. To be eligible, you must notify us immediately of
any unauthorized use of your Account or Card. We will provisionally credit you for losses from the unauthorized Card
use within five Business Days of your notification to us of the loss. The VISA Zero Liability Policy does not apply to
transactions made at an ATM or to any transactions made using your PIN that are not processed by VISA. We may
impose greater liability, or withhold, delay, limit or rescind any provisional credit that we provide to you under the Zero
Liability Policy, based on factors such as your gross negligence or fraud, your delay in reporting unauthorized use,
our investigation and verification of your claim, your Account standing and history and other factors. If you are not
eligible for the VISA Zero Liability Policy or it otherwise does not apply, you may be liable for unauthorized use of your
Account, but not for more than $50. You won’t be liable for any unauthorized use of your Account that occurs after
you notify us of the loss, theft or possible unauthorized use of your Card, Account number or Access Device. We may
require you to provide certain information in writing to help us find out what happened. You also must identify for us
any charges on your Statement that were not made by you or someone authorized by you and from which you received
no benefit.
4. INTEREST CHARGES
A. Annual Percentage Rates. Annual Percentage Rate or APR means the annual rate of interest charged on Account
balances. The APRs and corresponding Daily Periodic Rates for your Account are listed in the Interest Rate and Fee Schedule.
To get the Daily Periodic Rate, we divide the APR by 365 and round at the seventh place after the decimal point. We may
charge different Daily Periodic Rates and APRs on different Account transactions (such as purchases, cash advances and
balance transfers) or during special promotional periods.
B. Variable Rates. Your APRs are subject to change each Billing Cycle and are determined each Billing Cycle by adding the
Margins listed in the Interest Rate and Fee Schedule to the Index. The Index is the Prime Rate (U.S.) published in the Money
Rates section of The Wall Street Journal. Your APRs may increase if the Index increases. If any APR increases, the amount of
interest charged and your minimum payment may increase. Your APR will be based on the Prime Rate in effect 45 days prior
to the end of each billing cycle. When a range of rates has been published on the day we calculate the APR, the highest rate
will be used. If this Index is no longer available we will select a new one. The maximum rate for any variable APR is the
applicable Margin plus the Index.
C. Introductory or Promotional APR. We may offer you an introductory or promotional APR for specific Account transactions,
such as balance transfers. Any introductory or promotional APR offer will be subject to the terms of the offer and this Agreement.
Upon the expiration of an introductory or promotional APR, the rate will return to the rate for the specified type of transaction(s)
as stated in this Agreement. See Section 4 – Interest Charges, subsection D for details on how to avoid paying interest
on new purchases if you take advantage of a 0% introductory or promotional APR Balance Transfer offer.
D. When Interest Charges Begin. Your payment due date is at least 25 days after the close of each Billing Cycle. We will not
charge you interest on new purchases if you pay your entire balance in full by the payment due date each Billing Cycle. We will
begin charging interest on cash advances and balance transfers on the transaction date. There is no time period in which you
may repay a cash advance or balance transfer and avoid imposition of an interest charge. If you have a balance transfer
balance on your Account that is subject to a 0% introductory or promotional APR we will not charge you interest on new
purchases during the term of the introductory or promotional offer if you pay by the payment due date of each Billing Cycle the
amount shown within the 'Payment Information" box titled "Payment to Avoid Purchase Interest". We calculate the amount by
adding: (1) your Minimum Payment Due; plus (2) the total outstanding purchase balance; plus (3) the total outstanding cash
advance balance; plus (4) the total amount of outstanding balance transfer balances that are not subject to the 0% introductory
or promotional APR; plus (5) any fees that had been assessed to the Account. The "Payment to Avoid Purchase Interest" will
never be less than the minimum due.
E. Balance Calculation Method (Average Daily Balance Method (Including Current Transactions)). In any Billing Cycle in
which you owe interest, we will charge interest on your balances of purchases, balance transfers and cash advances at the
applicable Daily Periodic Rates. We figure the interest charge on your Account by applying the periodic rate to the “average
daily balance” of your Account. To get the “average daily balance”, we take the beginning balance of your Account each day,
add any new transactions and fees and subtract any payments or credits. This gives us the daily balance. Then, we add up all
F03-W422-4-0521

6
the daily balances for the Billing Cycle and divide the total by the number of days in the Billing Cycle. This gives us the “average
daily balance”. We compound (charge interest on) unpaid interest charges and unpaid fees.
F. Minimum Interest Charge. If the total interest charges on your Account for a Billing Cycle are greater than zero but less
than $1, the interest charge for that Billing Cycle will be $1.
5. FEES. You agree to pay the fees described below whenever applicable.
A. Annual Membership Fee. If your Account has an Annual Membership Fee, it will be billed each year, whether or not you
use your Account. The amount is listed in the Interest Rate and Fee Schedule. Your payment of the Annual Membership Fee
does not affect our right to close your Account or limit your right to make transactions on your Account.
B. Cash Advance and Balance Transfer Transaction Fees.
1. Cash Advance and Balance Transfer Transaction Fees. We will charge a transaction fee on each cash advance and
balance transfer you obtain in the amounts shown in the Interest Rate and Fee Schedule.
2. Foreign Transaction Fee. If your Account has a Foreign Transaction Fee, we may impose a fee equal to a certain
percentage of the U.S. Dollar amount of a foreign transaction as shown in the Interest Rate and Fee Schedule.
C. Penalty Fees.
1. Late Payment Fee. The first time we do not receive a required minimum payment when due, we may charge a Late Payment
Fee of the minimum payment due or $29, whichever is less. If over the next six Billing Cycles, the minimum payment is not
received when due, we may charge a Late Payment Fee of the minimum payment due or $40, whichever is less.
2. Returned Payment Fee. We may charge you this fee each time your financial institution for any reason rejects a payment
you make to us, or if the payment cannot be processed. The first Returned Payment Fee will be equal to $29 or your minimum
payment due; whichever is less, even if your payment is eventually paid after a second presentment (if we elect to re-present
the payment). If over the next six Billing Cycles you incur an additional Returned Payment fees (for any of the reasons stated
above) the Returned Payment Fee may increase to $40, or your minimum payment due, whichever is less.
D. Other Fees. We may also charge the following fees, subject to any restrictions of applicable law.
1. Copy Fees. We may charge you a fee of up to $7 for each copy of a Statement or sales draft you request or up to $5 for
each copy of a payment check or written Access Device you request. However, we will not charge you for copies of documents
that you request in connection with a billing error/inquiry you may assert against us under applicable law.
2. Emergency Replacement Card Fee. If you request a replacement Card on an expedited basis (for example, to replace a
lost or stolen Card), we may charge you an Emergency Replacement Card Fee of up to $25.
3. Stop Payment Fee. If you ask us to stop payment on an Access Device, we may charge you a Stop Payment Fee of $39.
6. DEFAULT
A. Events of Default. Subject to restrictions of applicable law, you will be in default and we will not be obligated to honor any
attempted use of your Account (even if we do not give you advance notice) if any of the following events occurs:
•
•
•
•
•
•
•
•
•

We do not receive any payment required by this Agreement when such payment is due.
You exceed any credit limit.
You are unwilling or unable to pay what you owe under this Agreement, for any reason.
You die, become insolvent, file for bankruptcy or otherwise become the subject of a bankruptcy petition or filing.
You give us false or misleading information at any time in connection with your Account.
You send us more than one check or similar instrument that is returned to us unpaid or any automatic, electronic or
other payment on your Account cannot be processed or is returned unpaid, for any reason, within the last six Billing
Cycles.
You breach or otherwise fail to comply with any term or condition of this Agreement.
We have reason to suspect that you or any Authorized User may have engaged or participated in any unusual,
suspicious, fraudulent or illegal activity on your Account or any other account or loan you have with us or our affiliates.
You do not give us any updating information about your finances, employment or any other information we may
reasonably request, promptly after our request.

B. Our Rights After Default. In the event of default, we may close your Account, require you to pay the unpaid balance in full
or take any other action permitted by applicable law.

F03-W422-4-0521

7
C. Collection Costs. If we refer any past due amounts you owe under this Agreement to a collection agency or lawyer for
collection, you agree to pay us our reasonable costs of collection, including without limitation collection agency fees, court costs
and attorneys’ fees actually incurred by us, to the fullest extent permitted by applicable law.
7. CLOSING YOUR ACCOUNT
A. We May Close Your Account. Except where prohibited by applicable law, we may close your Account to new transactions
at any time, for any reason including Account inactivity and/or lack of credit card usage for an extended period of time, and
without prior notice.
B. You May Ask Us to Close Your Account. You may ask us to close your Account to new transactions at any time by calling
Customer Service at 1-877-GO-TD1ST (1-877-468-3178) if you have a First Class Visa Signature Card or at 1-888-561-8861
for all other cards.
C. After Your Account is Closed. After your Account is closed, you still must pay us any unpaid amounts under this Agreement.
We will not be liable to you for any consequences resulting from closing your Account. You agree to cut, tear or otherwise
deliberately damage all Cards and unused Access Devices in your or any Authorized User’s possession or control to prevent
unauthorized use by third parties.
8. CHANGING THIS AGREEMENT. We may change this Agreement, including (for example) changing the addresses and
telephone numbers you should use to contact us, changing fees, adding new fees, changing the Daily Periodic Rates and
corresponding APRs or increasing your required minimum payment. We may change this Agreement based on economic or
market conditions, our business strategies or for any other reason (including reasons unrelated to you or your Account). Any
changes we make to this Agreement may apply to new transactions and/or then-existing balances as described in any notice
we are required to provide to you. We will notify you of changes to this Agreement as required by applicable law. We will mail
any required written notice to the address we have on file for your Account.
9. INFORMATION SHARING
A. Credit Information. We may review your credit history by obtaining information from consumer reporting agencies and
others. We may report information about your Account to credit bureaus. Late payments missed payments or other defaults on
your Account may be reflected in your credit report. We may report Account information on Authorized Users.
B. How to Dispute Reports Regarding Your Account. If you think the information we furnished to consumer reporting
agencies on your Account is not accurate please write to us at: P.O. Box 1448, Greenville, SC 29602, Attn: USBC. With your
letter, please provide us with:
• Your name, address and telephone number;
• The Account number(s) for the Account(s) you are disputing;
• A description of the specific information you are disputing and an explanation of the basis for your dispute; and
• Copies of documents that support your dispute. These could include (but are not limited to): a copy of your consumer
report showing the information that you are disputing, your Statements, a court order or (if applicable) a copy of a
police report or fraud or identity theft affidavit.
If you fail to provide us with the information listed above, we may be unable to investigate your dispute. We will notify you of
the results of our investigation within 30 days of receiving your dispute. A delay may be experienced if the dispute is not mailed
to the address above. We may take up to 45 days to investigate your dispute if, after providing us with your initial notice of
dispute, you provide us with additional information that is relevant to our investigation. If our investigation finds that the
information you are disputing was inaccurate, we will notify the consumer reporting agency of our determination and provide
the consumer reporting agency with the information necessary to correct the inaccuracy.
We will have no duty to investigate disputes that are substantially similar to a prior dispute that we have responded to, or that
relate to your identifying information (such as your name, date of birth, Social Security number, telephone number or address),
inquiries appearing on your consumer report, information from public records (such as judgments, liens, or bankruptcies, unless
these matters relate to your Account(s) with us), information related to fraud or active duty alerts on your report, or information
provided to the consumer reporting agency from someone other than us. We will also have no duty to investigate your dispute
if we reasonably believe it was submitted or prepared by (or if you submitted it on a form provided by) a credit repair
organization. If we determine that we will not investigate your dispute for one of these (or some other) reasons we will notify
you of that determination within five Business Days.
C. Telephone Monitoring and Recording. You consent to and authorize us and any of our affiliates, agents and marketing
associates to monitor and/or record any of your telephone conversations with any of our or their representatives for quality
control, training and other lawful purposes.
D. Telephone Numbers. When you give us your mobile phone number, we have your permission to contact you at that number
about all of your TD Bank accounts. Your consent allows us to use text messaging, artificial or pre-recorded voice messages
and automatic dialing technology for informational and account service calls, but not for telemarketing or sales calls. It may

F03-W422-4-0521

8
include contact from companies working on our behalf to service your accounts. Message and data rates may apply. You may
contact us anytime to change these preferences.
E. Account Benefits. We may offer you certain third-party benefits and services with your Account, as outlined in benefits
brochures or other documents and internet web sites. For example, certain eligible purchases charged with a VISA® Card may
be eligible for certain benefits or services through VISA U.S.A. Inc. (or its affiliates). Any benefits or services we make available
through third parties (including without limitation VISA U.S.A. Inc.) are not a part of this Agreement, but are subject to the terms
and restrictions outlined in the applicable benefits brochures or other documents or internet web sites provided or made
available to you from time to time. You agree that we may give information about you, any Authorized User, and your Account,
to any third party reasonably needing the information to provide you with such benefits or services. You also agree that we or
any third party providing any Account-related benefits or services may change, add, or delete benefits or services at any time
without notice.
10. MISCELLANEOUS
A. Certain Waivers. You waive the right of “presentment” and “notice of dishonor.” “Presentment” means the right to require
us to demand payment of amounts due under this Agreement. “Notice of dishonor” means the right to require us to give notice
to other person that amounts due under this Agreement have not been paid. You also waive demand for payment, protest,
notice of protest and all other notices and demands, to the fullest extent permitted by applicable law.
B. Assignment. We may assign your Account and our rights under this Agreement to our affiliates or to some other financial
institution or company without advance notice to you. That entity will take our place in this Agreement if we do this. You may
not assign or transfer your Account or any of your responsibilities under this Agreement to any other person.
C. No Security. Your Account is unsecured. We are not taking a security interest in any property in connection with your
Account.
D. Evidence. You agree that we may use a copy, microfilm, microfiche or digital image of any Statement or other document to
prove what you owe us and that the copy, microfilm, microfiche or digital image will have the same validity as the original.
E. Captions and Interpretation. The captions used in this Agreement are for convenience only. They do not affect the meaning
of the paragraphs in this Agreement.
F. Severability. If any part of this Agreement is held to be invalid, the rest will remain in effect.
G. Delay in Enforcement/No Waiver. We may delay or waive enforcing any of our rights or remedies under this Agreement or
under applicable law without losing any of those rights or remedies. Even if we do not enforce our rights or remedies at any
one time, we may enforce them at a later time.
H. Entire Agreement. The Agreement is the entire agreement between you and us relating to your Account. The Agreement
replaces any other agreement relating to your Account that you and we made earlier or at the same time. In the event of a
conflict between this Personal Credit Card Agreement and any other document (including the other documents that are
collectively called the Agreement), this Personal Credit Card Agreement will control unless otherwise expressly provided in the
other document.
NJ RESIDENTS: Because certain provisions of this Agreement are subject to applicable laws, they may be void, unenforceable
or inapplicable in some jurisdictions. None of these provisions, however, is void, unenforceable or inapplicable in New Jersey.
Cardholder: Your name, address and signature (including any electronic or digital signature) and the date on any application
or solicitation or on any sales slip or other evidence of indebtedness on your Account represents your name, address and
signature and the date on this Agreement.
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find a Mistake on Your Statement
If you think there is an error on your bill, write to us at:
TD Bank
P.O. Box 84037
Columbus, GA 31908-4037
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and
believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your bill.

why you

F03-W422-4-0521

9
•

At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you
think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your bill, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We
must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your
bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with a credit card, and you have tried in good
faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50.00. (Note: Neither of these are necessary if your purchase was
based on an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
TD Bank
P.O. Box 84037
Columbus, GA 31908-4037
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
Active Duty Service Members and Dependents: The following important notice applies if you are an active duty service
member or a dependent of one at the time you request an Account. Federal law provides important protections to members of
the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a
member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate
must include, as applicable to the credit transaction or account: the costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any application fee charged (other than certain application fees
for specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit
card account). If you would like more information regarding your account, please call us at 1-877-488-3712.

F03-W422-4-0521

10
Interest Rate and Fee Schedule

The Interest Rate and Fee Schedule is incorporated into and made a part of your Personal Credit Card Agreement.
Please read and keep this Schedule with your Agreement for your records.

Interest Rates and Interest Charges
TD Cash:

Annual Percentage Rate
(APR) for Purchases:

0% Introductory APR for the first 6 billing cycles after Account opening.
After that, your APR will be 12.99%, 17.99% or 22.99%, based

on your creditworthiness.
All APRs will vary with the market based on the Prime Rate.
TD First Class:

13.24%

APR for Balance Transfers:

This APR will vary with the market based on the Prime Rate.
TD Cash:
0% Introductory APR for the first 15 billing cycles after Account opening.
After that, your APR will be 12.99%, 17.99% or 22.99%, based on your
creditworthiness.
All APRs will vary with the market based on the Prime Rate.
TD First Class:
0% Introductory APR for the first 12 billing cycles after Account opening.

APR for Cash Advances:
How to Avoid Paying
Interest on Purchases:
Minimum Interest Charge:
For Credit Card Tips from
the Consumer Financial
Protection Bureau:
Fees
Annual Fee:
Transaction Fees:
• Balance Transfers
• Cash Advances

• Foreign Transactions

After that, your APR will be 13.24%.
This APR will vary with the market based on the Prime Rate.
25.24%
This APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due
date each month.
If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.
TD Cash: None
TD First Class: $89 (waived for the first year)
Either $5 or 3% of the amount of each transfer, whichever is greater.
TD Cash:
Either $10 or 5% of the amount of each cash advance, whichever is greater.
TD First Class:
Either $10 or 3% of the amount of each cash advance, whichever is greater.
TD Cash: 3% of each transaction in U.S. dollars
TD First Class: None

Penalty Fees:
• Late Payment
Up to $40
• Returned Payment
Up to $40
How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including Current
Transactions).” See your account agreement for more details.

F03-W422-4-0521

11
Loss of Introductory APR: If you are 60 days past due, we may end your introductory APR for Balance Transfers
and apply the standard APR for Balance Transfers as stated in the Interest Rates and Interest Charges Table, to
all existing and new Balance Transfer balances on the Account.
Billing Rights: Information about your rights to dispute transactions and how to exercise those rights is provided
in your account agreement.
TD Cash Margins:
For Purchases, 9.74%, 14.74% or 19.74% will be added to the Index
For Balance Transfers, 9.74%, 14.74% or 19.74% will be added to the Index
For Cash Advances, 21.99% will be added to the Index
The corresponding DAILY PERIODIC RATES as of May 1, 2021 are:
For Purchases, 0.0355890%, 0.0492877% or 0.0629863%
For Balance Transfers, 0.0355890%, 0.0492877% or 0.0629863%
For Cash Advances, 0.0691507%
First Class Margins:
For Purchases, 9.99% will be added to the Index
For Balance Transfers, 9.99% will be added to the Index
For Cash Advances, 21.99% will be added to the Index
The corresponding DAILY PERIODIC RATES as of May 1, 2021 are:
For Purchases, 0.0362740%
For Balance Transfers, 0.0362740%
For Cash Advances, 0.0691507%
Index: Prime Rate as of May 1, 2021 is 3.25%

F03-W422-4-0521

